U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 14, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Will Robertson Brown v. United States of America,
S.Ct. No. 20-5762

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
16, 2020, and placed on the docket on September 23, 2020. The government’s response is due
on October 23, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 23, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5762
BROWN, WILL ROBERTSON
USA

MICHAEL L. SCOTT
ASSISTANT FEDERAL PUBLIC DEFENDER
NORTH/SOUTH. DIST.OF MISS.
200 SOUTH LAMAR STREET
SUITE 200-N
JACKSON, MS 39201
601-948-4284
MIKE_SCOTT@FD.ORG

